Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  HOSPITAL REPORTING TO THE
   NATIONAL PRACTITIONER
          DATA BANK




                  @ SERVICE$
            ~f$                “L”
                                 -?

       ~w
                                      JUNE   GIBBS BROWN
       ~
       s                              Inspector   General
       %
         %
         @--
                  %d~a
                  2
                   $

                                             FEBRUARY 1995
                                             OEI-01-94-00050

                                                               I
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This statutory
mission is carried out through a nationwide network of audits, investigations, and inspections
conducted by three OIG operating components: the Office of Audit Services, the Office of
Investigations, and the Office of Evaluation and Inspections. The OIG also informs the Secretary of
HHS of program and management problems and recommends courses to correct them.

                              OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs and
operations in order to reduce waste, abuse, and mismanagement and to promote economy and
efficiency throughout the Department.

                             OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and admkistrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of 01 lead to criminal convictions, adrnhlistrative sanctions, or
civil money penalties. The 01 also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.

                 OFFICE OF EVALUATION AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and
the public. The findings and recommendations contained in these inspection reports generate rapid,
accurate, and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental
programs.

This report was prepared under the direction of Mark R. Yessian, Ph. D., Regional Inspector General,
and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region, Office of Evaluation and
Inspections. Participating in this project were the following people:

Boston Region                                                                   Headquarters
Barry McCoy                                                                     Alan Levine
David Veroff

For additional copies of this report, please contact the Boston regional ofllce by telephone at
(617) 565-1050, or by fm at (617) 565-3751.
              EXECUTIVE                              SUMMARY

PURPOSE

To conduct a preliminary   inquiry to help the Public Health Service determine how

hospitals are responding to their legal obligation to report to the National Practitioner    Data

Bank adverse actions they take against health care practitioners.


BACKGROUND

Under the direction of the Health Resources and Services Administration in the Public
Health Service, the National Practitioner Data Bank has been operating since September 1,
1990. Since that time it has received and maintained records of medical malpractice
payments and adverse actions taken by hospitals, other health care entities, licensure
boards, and professional societies against licensed health care practitioners. At the same
time, the Data Bank has been making these data available to hospitals, other health care
entities, and licensure boards to facilitate their credentialing and investigatory activities.

As indicated in the Health Care Quality Improvement Act of 1986, which established the
Data Bank, hospitals have a particularly important role to play in determining its
effectiveness. For each practitioner seeking clinical privileges, they must query the Data
Bank to determine if it has any information on that person. Once a practitioner receives
privileges, they must then make a follow-up query every two years. In addition,
hospitals, as well as other health care organizations, must report to the Data Bank all
adverse actions they take that affect a practitioner’s clinical privileges for more than 30
days. Hospitals that fail to meet their reporting responsibilities, risk losing the liability
protections afforded their professional review activities under the Health Care Quality
Improvement Act.

In this report, we focus on the hospitals’ responsibilities to report information to the Data
Bank. We do that because the Health Resources and Services Administration asked us to
conduct a preliminary investigation to determine if there might be any basis for concern
about how hospitals were responding to the Data Bank reporting requirements.

EXTENT OF HOSPITAL REPORTING

From September 1, 1990 to December 31, 1993, about 75 percent of all hospitals in the
United States never reported an adverse action to the Data Bank.

The State-by-State variti”on in the rate of nonreporting hospitals is considerable ­
ran~”ngfrom 93.2 percent of all hospitals in South Dakota to 51.7 percent in New
Jersey. The median rate is 76.4 percent.




                                                i
Among the nonreporting hospitals are many large ones. For instance, in Massachusetts,
among 112 hospitals that did not report an adverse action to the Data Bank in its first 3
1/3 years of operation, 18 have 300 or more beds.

Less populated and/or predominately rural States are heavily represented among those
with the highest level of nonreporting. On the other end, among the States with the
lowest rates of nonreporting, the more populous and/or more urban ones are strongly
represented.

From September 1, 1990 to December 31, 1993, the approximately 6,500 hospitals in the
United States submitted 3,154 adverse action reports to the Data Bank. This represents
2.6 reports per 1,000 hospital beds during the 3 1/3 year period.

With the focus on the number of reports rather than on number of nonreporting hospitals,
the State-by-State picture changes somewhat. For instance, New Jersey, which ranks first
in the proportion of hospitals sending at least one report to the Data Bank, ranks 18th in
the number of reports per 1,000 hospital beds.

Repoti”ng rates per 1,000 hospital beds vary greatly State to State - ranging from 8.5 in
Nevada to .7 in South Dakota. In most States, the repoti”ng rate is between 1.5 and
4.0. The median rate is 2.5 adverse action reports.

Some of differences among States are considerable. For example, in California, the State
with the largest number of hospital beds, the rate of adverse actions is 3.7 per 1,000 beds.
In New York, the State with the second largest number of hospital beds, the rate is much
less -2.1. In Ohio, the rate is 2.9; in nearby Illinois, it is 1.5

BASIS FOR CONCERN

Our review suggests a sufficient basis for concern about the hospitals’ response to the
Data Bank reporting requirements. The wide variation in reporting rates from State to
State is in itself troubling. It could suggest differences in the quality of care rendered or
perhaps in the capacity or willingness of hospitals to submit reports to the Data Bank.
The explanation is unclear.

Further, the level of reporting in the nation as a whole may be unreasonably low.

  �	   In a 1989 planning document submitted to the Office of Management and Budget,
       the Public Health Service estimated there would be 5,000 hospital adverse action
       reports a year. Others had estimated levels more than twice that. The actual
       average has been about 1,000 a year.

  �	   During the September 1, 1990- December 31,1993 period, when hospitals
       reported 3,154 practitioners to the Data Bank, State medical boards took
       disciplinary actions against about 8,000 physicians.



                                               ii
  �	   A 1991 Harvard Medical Practice study of hospitalized patients in New York State
       found that in 1984, one percent of the hospitalizations in its random sample
       involved adverse events caused by negligence. On the basis of this sample, the
       study team estimated that during 1984, negligent care in the State accounted for
       27,179 injuries, including 6,895 deaths and 877 instances of “permanent and total
       disability. ”

ISSUES WARRANTING FURTHER ANALYSIS

That there is a basis for concern is not the same as finding there is a problem that must be
addressed. To determine if that is, indeed, the case, fiu-ther inquiry is necessary. On the
basis of our own preliminary review, we have identified four issues that warrant further
analysis.

There may be few practitioners with serious pe~ormance problems. The current level of
reporting may be appropriate. The early estimates, based on little hard evidence, may
simply have been unrealistic. Further, hospital quality assurance efforts may be
contributing significantly to improved practice.

Some hospitals may be responding to poorly pe~orrning practitioners in ways that do not
require repoti”ng to the Data Bank. They may be taking preventive actions that lessen
the need for adverse action. Another possibility is that some may be circumventing the
reporting requirements by deliberately taking actions that fall below the threshold that
calls for reporting.

Some hospitals may be reemphasizing or avoiding adverse actions against poorly
pe~orming physicians. The reporting requirements raise the stakes associated with an
adverse action and thus may serve as a deterrent to such action. Continuous quality
improvement programs, in seeking to create a safe environment for physicians to assess
practice data, may discourage hospital actions against outliers.

Some reportable actions may not in fact be reported to the Data Bank. In one State
where we were able to get some information, we found that because of administrative
mix-ups, some reportable actions were not submitted to the Data Bank. It is not clear
how often such failures occur in other States. It is clear that neither the Medicare
Conditions of Participation for Hospitals, nor the standards of the Joint Commission on
Accreditation of Healthcare Organizations specify hospital responsibilities concerning the
Data Bank.




                                             . ..
                                             111

RECOMMENDATIONS

The Public Health Service, through the Health Resources Services Administration,
should suppoti further inquiry to foster a better understanding of the factors in.uencing
hospital repo~”ng to the Data Bank. Intensive case studies that examine the extent and
nature of adverse actions, and more generally of peer review efforts in particular
hospitals, probably offer the best approach. Although they would not result in
generalizable findings, they could result in deeper insights into hospital practices that
could facilitate effective implementation of the Data Bank law.

The Public Health Service should sponsor a conference to focus attention on issues
influencing reporthzg to the Data Bank. The conference should include representatives
from the Public Health Service and the Health Care Financing Administration as well as
representatives from the American Hospital Association, the American Medical
Association, the Joint Commission on Accreditation of Heahhcare Organizations, the
Federation of State Medical Boards, and other organizations. The conference should pay
particular attention to the issues identified in this report as warranting firther analysis. It
should also address actions that might be taken to ensure that hospitals meet their
reporting responsibilities as called for in the Health Care Quality Improvement Act of
1986.

The Public Health Service and the Health Care Financing Administrah”on should work
together to ensure that the Joint Commission on Accredit&”on of Healthcare
Organizatz”onsassesses more fully hospitals’ compliance with the intent and pati”culars
of the Data Bank law. Toward this end, they might consider the following options:

A Letter. Send a joint communication to the Joint Commission urging that it incorporate
the Data Bank requirements into its standards, conduct a more thorough review of hospital
peer review efforts and adverse actions as part of its survey process, and seek to identify
any indications of hospitals circumventing the intent of the Data Bank’s reporting
requirements.

Regulatory Change. Amend the Medicare Conditions of Participation in a manner that
will specify hospitals’ responsibilities under the Data Bank law. This, in turn, would call
for the Joint Commission to devote greater oversight to the hospitals’ performance of their
responsibilities.

Legz”shztz”on.Propose legislation that would call for hospitals’ Data Bank responsibilities
to be addressed in the Medicare Conditions of Participation and for the Joint Commission
to focus more attention on the fulfillment of these responsibilities during its survey
process.




                                               iv
COMMENTS ON THE DRAFT REPORT

We solicited and received comments on the draft report from the Public Health Service
(PHS), the Health Care Financing Administration (HCFA), the Joint Commission on
Accreditation of Healthcare Organizations (JCAHO), the American Hospital Association
(AHA), Public Citizen’s Health Research Group (PCHRG), and the American Medical
Association (AMA). Their comments appear in fill in appendix B. Below we summarize
the comments, and, in italics, our responses.

Recommendation #1 Calling for PHS to Conduct Further Inquiry

PHS concurred but suggested that the case study analysis we suggested be deferred until a
study it has underway is completed. The JCAHO and PCHRG strongly supported further
inquiry. The AHA and AMA did not comment specifically on the recommendation. We
continue to urge that PHS give high priori~ to an in-depth case study inquiry. The AHA,
in its comments, provides jimther rationale for such inquiry by emphasizing that concerns
about insufficient immunity protections are exerting a “powe@d disincentive” for hospital
peer review activi~. Focused case reviews could help indicate the extent and nature of
this problem.

Recommendation #2 Urging PHS to Sponsor a Conference

The PHS agreed with the thrust but not the specific content of the recommendation. It
stated that in the near-term it will be holding ad hoc meetings at professional associations
that would provide a better opportunity for discussion. At a later point, it indicated, a
conference, as we call for, might be more desirable. The JCAHO supported a conference
as “a solid first step toward defining the reporting problem. ” The AMA regarded it as
premature. Others did not comment. We strongly urge that PHS consider the conference
as a near-term priority. It could help frame the agenda for firther inquiry. And, if
accompanied by a report on conference deliberations that were widely disseminated, it
could help hospitals around the country examine more fully the factors that may be
in.uencing peer review and Data Bank reporting in their own settings.

Recommendation #3 Calling for PHS and HCFA to Ensure that JCAHO Assess More
Fully Hospitals’ Compliance with the Data Bank Law

The PHS and HCFA agreed with the recommendation and agreed that a joint letter to
JCAHO was the best means of follow-up action at this time. The HCFA added that a
joint letter should also be sent to the American Osteopathic Association (AOA), which
accredits 150 hospitals for Medicare purposes. The JCAHO and AMA regarded any such
follow-up action as premature. The PCHRG urged strong follow-action involving a
change in the Medicare Conditions of Participation. The AHA did not comment on this
point. We regard a joint letter to be a reasonable means of follow-up at this time.
Although our inquiry did not address AOA accreditation practices, we suppofl a joint
letter to it as well lf PHS and HCFA jind that appropriate. We have retained the options



                                              v
involving regulatory and legislative change. Over the long term, depending on the
response to the joint letter, they may still warrant consideration.

Methodology

The AHA and AMA raised some methodological objections. Both questioned the
relevance of the “considerations” we offered in supporting our finding that there is a
sufficient basis for concern about the hospitals’ response to Data Bank reporting
requirements. In this regard, they cited as misleading our references to prior estimates of
adverse action reports from hospitals, the Harvard Medical Practice study, and the number
of disciplinary actions taken by State medical boards (only AMA cited the latter). Both
AHA and AMA sought more refined measures of hospital reporting than we offered. We
recognize the potential value of more rejined measures of hospital reporting. Our
purpose, as indicated, was to conduct a limited inquiry to help PHS determine how
hospitals are responding to their Data Bank obligations. Given that about 75 percent of
the hospitals in the United States never reported an adverse action during the first 3113
years of the Data Bank’s operation and the wide variation in reporting levels among the
States, we continue to find that there is sufficient basis for our modest recommendations.




                                             vi
                      TABLE                 OF                    CONTENTS




EXECUTIVE SUMMARY . . . . . . . .                            . . . . . . . .                                   ,..      .
 . . . . ,..   . . . . . . . .    i

INTRODUCTION             . . . . . . . . . . . . .           . . . . . . . .                                   . . .
     . . . . . . . . . . . .   . . . 1

FINDINGS


  . Extent of Hospital Reporting . . . . .                   ,.                  ...                   ,..     ,..      .
 . . . . ,..   . . . .    ,..     3

  � Basis for Concern       . . . . . . . ..*C               .        ...!                             . . .   . . . .
 . . . . ,..      . . . .    . . .4

  . Issues Warranting Further Analysis .             .            .          .         .       .       . . .   . . . .
 . . . . . . . . . . .       . . . 5

RECOMMENDATIONS                 . . . . . . . . .        .            .          .         .       .   . . .   . . . . . . . . . . . . . . .        . . . 7

COMMENTS ON THE DRAFT REPORT                                                 . . .                     . . .   . . . .
 . . . . . . . . . . .       . . . 9

APPENDICES


A: Hospital Adverse Action Reporting, by State .                                                       . . .   . . . .
 . . . . . . . ,..      .          A-1

B: Complete Comments on the Draft Report . . .                                                         . . .   . . . .
 . . . . . . . . . . .       . . B-1

C: Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..
 C-l
                           INTRODUCTION

PURPOSE

To conduct a preliminary inquiry to help the Public Health Service determine how
hospitals are responding to their legal obligation to report adverse actions to the National
Practitioner Data Bank.

BACKGROUND

In the Health Care Quality Improvement Act of 1986, Congress called for the
establishment of the National Practitioner Data Bank (hereafter referred to as the Data
Bank). It did so to help health care entities and licensing boards make well- informed
decisions concerning the credentialing, the licensing, and, where necessary, the
disciplining of health care practitioners. Toward that end, it stipulated that information on
practitioners reported to the Data Bank would be made available, upon request, to health
care entities and State licensing boards. 1 For hospitals in particular, Congress went
t?.mtherand mandated that they regularly query the Data Bank as part of the application
process for physicians, dentists, and other practitioners seeking clinical privileges and
every two years for those having such privileges.

The Congress also specified the types of information that had to be reported to the Data
Bank. The Data Bank was to include medical malpractice payments, sanctions taken
against practitioners by professional societies and State medical and dental boards, and
adverse actions taken against practitioners by hospitals and other health care entities. The
adverse actions reportable by hospitals and other health care entities would be those that
affected a practitioner’s clinical privileges for a period greater than 30 days. They would
also include cases where a practitioner surrendered such privileges while an investigation
was underway or in exchange for not conducting an investigation.

Hospitals that fail to carry out their responsibilities to report to the Data Bank risk losing
the liability protections afforded to their professional review activities under the Health
Care Quality Improvement Act. The regulations implementing the Act calls for the
Secretary of the Department of Health and Human Services (1) to investigate hospitals that
appear to be violating their reporting responsibilities, (2) to provide them with an
opportunity to correct their practices if they are found to be in noncompliance, and (3) to
remove the liability protections if the noncompliance continues. 2

The Data Bank, administered under the direction of the Health Resources and Services
Administration of the Public Health Service (PHS), began operation on September 1,
1990. In late 1992 and early 1993, we issued reports examining the usefulness and impact
of the Data Bank to hospitals and licensing boards during the first year and a half of its
operation.3 Currently, at the request of PHS, we are updating that work by examining its
usefulness and impact in the ensuing period.



                                              1

In this brief report, we focus on one discrete and very significant aspect of the Data
Bank’s operation: hospitals’ reporting of adverse action information to the Data Bank.
We do that because the Health Resources and Services Administration asked us to
determine if there might be a basis for concern associated with the hospitals’ response to
the reporting requirements. Any evidence, for example, of hospitals not complying with
the requirements would certainly cause concern. These would also be a basis for concern
if hospitals are taking actions that serve to circumvent the general intent of the law to
identify practitioners who may pose a danger to the public.

The hospitals’ full cooperation in carrying out the reporting requirements is vital for a
number of reasons. One is the sheer number of hospitals involved. With about 6,500
hospitals across the country, they represent a major potential source of information for the
Data Bank. A second reason has to do with the nature of the information reported. A
loss or reduction in clinical privileges is a serious action that raises important questions
about the competence and/or professionalism of a practitioner. Finally, and more
basically, hospitals have considerable data on the medical practice patterns of physicians
and are in a good position to identify those practitioners who are poor performers.

APPROACH AND METHODOLOGY

Per our understanding with the PHS our inquiry was a limited one intended to help it
begin its consideration of hospital reporting issues. In that context, we focused our
examination on the extent of hospital reporting during the first 3 1/3 years of the Data
Bank’s operation.4 In the first section of the report we present data indicating (1) the
number of hospitals that made no reports or 1 or more reports during the 3 1/3 year
period and (2) the number of reports per 1,000 hospital beds. In both cases, we indicate
the variation among the States.

After presenting the data, we seek, in the second section, to help PHS assess if they
present sufficient basis for concern. We draw on interviews with representatives of
national organizations, State governments, and PHS; and include a review of pertinent
literature concerning health care quality assurance.

We close with three recommendations. Two directed to PHS and the other jointly to PHS
and the Health Care Financing Administration.

Our review was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                             2

                                   FINDINGS

EXTENT OF HOSPITAL REPORTING

From September 1, 1990 to December 31, 1993, about 75 percent of all hospitals in the
United States never reported an adverse action to the Data Bank.

The nonreporting hospitals include all types of hospitals in urban and rural locations. And
they include many large ones as well as small ones .5 For example, in Massachusetts,
among the 112 hospitals that did not report an adverse action to the Data Bank in its first
3 1/3 years of its operation, 18 have 300 or more beds.

The State-by-Stute vatin  in the rate of nonrepti”ng hospitals is considemble ­
rangz”ngfmm 93.2 percent of all hospitals in South LMwkz to 51.7 percent in New
Jersey. The mediun tie is 76.4 percent.

Among the States with the highest level of nonreporting, the less populated and/or
predominately rural ones are heavily represented. In addition to South Dakota, they
include Idaho, Montana, Mississippi, Alaska, Alabama, and North    Dakota. On the other
end, among the States with the lowest rates of nonreporting, the more populous and/or
more urban ones are very much in evidence. Along with New Jersey, they include the
District of Columbia (classified as a State for purposes of this study), Maryland, New
York, California, Ohio, and Rhode Island (see appendix A, table 1).

Fmm September 1, 1990 to December 31, 1993, the approximately 6,500 hospitals in the
United States submitted 3,154 adverse action repotis to the Data Bank. This represents
2.6 repotis per 1,000 hospkl beds during the 3 1/3 year period.

When the frame of reference shifts from nonreporting hospitals to the total number of

reports per hospital, the State-by-State picture changes somewhat. For example, we find

that New Jersey, which ranks first in the proportion of hospitals sending at least one

report to the Data Bank, ranks 18th in the number of reports submitted per 1,000 hospital

beds. Even more striking is that New York shifts from 4th to 33rd.


Looking more closely, we find that in New Jersey, among the 58 hospitals that submitted

adverse action reports to the Data Bank, 25 submitted only 1. In New

York, among the 110 hospitals reporting, 57 submitted only 1 (see appendix A, table 2).


Repo~”ng ties per 1,000 hospdal beds vary greatly fmm State to State - ran~”ngfrom
8.5 in Nevada to .7 in South Dakota. In most States, the repo~”ng rate is between 1.5
and 4.0. The medhm mte is 2.5 adveme action reports.

Some of the differences among States are considerable (see appendix A, table 2). For
instance, the rate of adverse action reports in California, the State with the largest number
of hospital beds, is 3.7 per 1,000 beds; the rate in New York, the State with the second




                                              3

     largest number of hospital beds, is considerably less -2.1. In Ohio, the rate is 2.9; in
     nearby Illinois it is 1.5. In Virginia, the rate is 4.2; in neighboring Tennessee, which
     has about the same number of hospi~ls and hospital beds, the rate is 1.3.

     BASIS FOR CONCERN

     Our review suggests that there is sufficient basis for concern about the hospitals’ response
     to the Data Bank’s reporting requirements.

    This is most clearly     the case because   of the wide   variation in hospital reporting      rates from
    &ate to State. The reporting period for these data is long enough - more than 3 years - to
    discount short-term aberrations in the States. What, then, might account for the extensive
    variation? Does it reflect differenws in the quality of care being rendered in hospitals?
    In the capacity or willingness of hospitals to take adverse actions? In other factors
    associated with the reporting requirements? The answers are not at all clear.

    Whatever the State-to-State differences, there is alSOreason to suspect that the level of
    reporting in the nation as a whole may be unreasonably low. Some considerations which
    may support such a suspicion are as follows:

    .	      During the planning stage for the Data Bank, the PHS, in a 1989 planning
            document submitted to the office of Management and Budget, estimated there
            would be 5,000 adverse action reports a year from hospitals.b Other estimates
            from other sources were even higher. Although all estimates were based on little
            empirical evidence, the gap between them and the actual yearly average of about
            1,000 adverse action reports is striking.
1
    .	     During the 1990 to 1993 period, when hospitals reported about 3,154 practitioners
           to the Data Bank, State medical boards took disciplinary actions against about
           8,000 physicians. 7 These numbers are not directly comparable, but, again, the
           discrepancy is sufficiently large to raise legitimate questions about whether
           hospitals are being sufficiently rigorous in taking adverse actions against
           practitioners on their staffs.g

    .	     A 1991 Harvard Medical Practice study of hospitalized patients in New York State
           found that, in 1984, one percent of the hospitalizations in its random sample
           involved adverse events caused by negligence. On the basis of its sample, the
           study team estimated that during 1984, negligent care provided in New York State
           hospitals was responsible for 27,179 injuries, including 6,895 deaths and 877
           instances of “permanent and total disability. “g TO be sure, all of these cases did
           not warrant     the hospital   taking an adverse   action   against the practitioners   involved.
           Yet, in contrast, it is striking to find that in the first 3 1/3 years of the Data Bank’s
           operation, close to three-fourths of the hospitals in the country have not reported a
           single physician to the Data Bank.




                                                       4

                    RECOMMENDATIONS

The effectiveness of the Data Bank depends greatly on the cooperation of hospitals. They

must query the Data Bank in a timely manner when they review the credentials of

practitioners. And they must identify and report to the Data Bank practitioners

responsible for serious quality-of-care problems. This report supports further inquiry and

oversight to determine if hospitals are cooperating fully in carrying out their reporting

responsibilities. Toward that end, we offer the following three recommendations.


The Public Health Service, through the Health Resources and Services Administrti”on,
should support further inquiry to foster a better understanding of the factors influencing
hospital repoti”ng to the Data Bank.

Given the lack of any central repository of information on hospital peer review actions and
the considerable diversity among States and hospitals (even within the same State),
intensive case studies probably offer the best near-term approach for further examination.
Case studies of hospitals in a few States could help to elucidate the extent and nature of
adverse actions and more generally of peer review efforts in particular hospitals. They
could also identify some of the operational realities that influence hospital disciplinary
efforts. In this context, the case studies could provide information that facilitates effective
implementation of the Data Bank law and of broader quality assurance objectives of the
Department of Health and Human Services.

In choosing case study sites, it may be particularly helpful to include States with
substantially different rates of hospital reporting to the Data Bank. Although the results
would not allow for generalizable conclusions on a national scale, they could allow for
deeper insights into what factors contribute to differential rates of reporting.

The Public Health Service should sponsor a conference to focus attention on issues
influencing reporting to the Data Bank.

The conference should include representatives from the Public Health Service and the
Health Care Financing Administration as well as representatives from the American
Hospital Association, the American Medical Association, the Joint Commission on
Accreditation of Healthcare Organizations, the Federation of State Medical Boards, and
other organizations. The conference should pay particular attention to the issues identified
in this report as warranting further analysis. It should also address actions that might be
taken to ensure that hospitals meet their reporting responsibilities as called for in the
Health Care Quality Improvement Act of 1986.

The Public Health Service and the Health Care Financing Administration should work
together to ensure that the Joint Commission on Accreditation of Healthcare
Organizations assesses more fully hospitals’ compliance with the intent and particulars of
the Data Bank law.



                                               7

Given that the Joint Commission’s efforts serve as the Department’s vehicle for overseeing
hospital compliance with the Data Bank law and given its current limitations hi that
regard, this recommendation calls for a strengthening of the Joint Commissions’s reviews
that apply to hospital reporting to the Data Bank.

In 1994, the Joint Commission amended its scoring guidelines for surveyors by specifying
that hospital queries and reports to the Data Bank should be “timely” and by spelling out
more precisely some facets of the Data Bank law. 14 At the same time, the Joint
Commission considered including the Data Bank requirements in its statement of
standards, but chose not to do so. Such action would have given more prominence to and
underscored the importance of the hospitals’ obligations under the Data Bank law.

Because of its ongoing accreditation reviews of hospitals, the Joint Commission is in a
good position to help the Federal government better understand if there are problems
associated with hospitals’ reporting to the Data Bank. But to take advantage of this
opportunity, the Joint Commission clearly must devote greater attention to this issue
during its survey visits to hospitals. We recommend that the Public Health Service and
the Health Care Financing Administration collaborate on how best to achieve this end.
Among the options they might consider are the following:

A Letter. Send a joint communication to the Joint Commission urging that it incorporate
the Data Bank requirements into its standards, conduct a more thorough review of hospital
peer review efforts and adverse actions as part of its survey process, and seek to identify
any indications of hospitals circumventing the intent of the Data Bank’s reporting
requirements,

Regulatory Change. Amend the Medicare Conditions of Participation in a manner that
will specify hospitals’ responsibilities under the Data Bank law. Those responsibilities are
not addressed at present in the Medicare Conditions of Participation. This inclusion
would compel the Joint Commission to devote greater oversight to hospitals’ performance
of the responsibilities.

Legislation. Propose legislation that would call for hospitals’ Data Bank responsibilities
to be addressed in the Medicare Conditions of Participation and for the Joint Commission
to focus more attention on the fidfillment of these responsibilities during its survey
process.

Each of these approaches has been taken previously with respect to other matters - for
example, discharge planning and organ recovery procedures. The first would most likely
be the quickest to carry out and may have a stimulative effect, but it would lack the
authority of the second or third measures. The third would be the most authoritative
approach with the greatest likely impact, but would be likely to take longer to have an
effect. The second represents a likely mid-point between the other two in terms of time to
implement, expected impact, and degree of authority.




                                               8

 COMMENTS                              ON           THE           DRAFT             REPORT

We solicited    and received       comments     on the draft report   from the Public   Health   Service
(PHS),   the Health    Care Financing         Administration   (HCFA),   the Joint Commission      on
Accreditation   of HealthCare       Organizations     (JCAHO),    the American   Hospital   Association
(AHA),    the Public   Citizen’s     Health Research      Group   (PCHRG),    and the American      Medical
Association (AMA). We include the complete text of the comments in appendix B.
Below we summarize the comments of the respondents and then, in italics, offer our
responses. We do that first, and at most length, with respect to our recommendations.
We then summarize and respond to the methodological concerns raised by two
respondents.


RECOMMENDATIONS

Recommendation #1: The Public Health Service, through the Health Resources and
Services Adxrinistration, should support further inquiry to foster a better
understanding of the factors influencing hospital reporting to the Data Bank.

The PHS agreed but indicated that consideration of the in-depth case study analysis we
suggested is best deferred until a current study they are supporting is completed and the
results reviewed. The JCAHO was more enthusiastic about further inquiry, indicating that
it should be a “first priority” and was “an essential prerequisite to any informed action”
concerning hospital reporting. The PCHRG also expressed strong support. The HCFA,
AHA, and AMA did not comment specifically on this recommendation.

 We urge PHS to give higher priority to near-term irquiry lhat would examine in some
 &pth the fwtors influencing hospital reporting to the Dtia Bank. Such inquiq is likely to
 reqw”remore than ~he survey work it curretily has underway and, as we suggest in the
 report, would call for focused inquiry at particular hospitals. 77teAHA, even though it
 did not comment specljically on this recommendation, o~ers additional rationale for the
 kind of inquiry we suggest. It poirued out tti tti peer review immunity provisions set
forth in the Health Care Quulity Improvernen/ Act of 1986 have proven to be insuficieti
 and have served as a “powerjid disincetiive “for hospital peer review activity. l?z
 PCHRG raised a similar concern. Focused case studies could examine the extent and
 ruuure of the problems associated with the immunity provision, along with other factors.
 We incorporated this con.rideration into the text of thisjinal report.

Recommendation #2: The Public Health Service should sponsor a conference to focus
attention on issues influencing reporting to the Data Bank.

The PHS agreed with the thrust but not the specific content of this recommendation. It
noted that it “will be engaged in a series of ad hoc work group meetings and presentations
at various professional society meetings. ” It pointed out that such efforts would reach a
broader audience and allow for more one-on-one interaction. It further noted that if these


                                                         9
efforts prove unsuccessful, it would consider the conference approach we recommended.
The JCAHO was more supportive, calling a conference “a solid first step toward defining
the reporting problem. ” The AMA regarded a conference as “premature,” given its
concerns about the “accuracy and completeness” of data. Others did not comment
specifically on this recommendation.

We strongly suggest that PHS reconsider our conference recommetition        and, in fact,
accord it a higher pn”on”tythan our jirst recommendation. Such a conference, attended by
knowledgeable participants jlom the various sectors, would allow for more concefled
attention and interaction than the ad hoc meetings PHS cited. It could help outline the
scope of a subsequent, in-depth inquiry. And, if accompanied by a report on the
deliberations that were then widely distributed, it could help others around the count~
examine more fi.dly the factors (such as insufficient immuni~ protection) that may be
influencing hospital reporting in their own settings.

Recommendation #3: The PHS and HCFA should work together to ensure that the
JCAHO assesses more fully hospitals’ compliance with the intent and particulars of
the Data Bank law. (We elaborated on three possible options toward this end: (1) a joint
letter to JCAHO calling for it to give greater attention to hospital compliance with Data
Bank reporting laws, (2) regulatory change involving an amendment to the Medicare
Conditions of Participation, and (3) legislation calling for hospitals’ Data Bank
responsibilities to be addressed in the Medicare Conditions. )

The PHS supported the letter option and indicated that it already has had initial discussion
with HCFA concerning it. The HCFA also expressed support for a letter and added that
in addition to JCAHO, it should be sent to the American Osteopathic Association, which
accredits 150 hospitals for Medicare purposes. The JCAHO regarded each of the options
as “somewhat premature, ” without a better understanding of the problem. The AMA,
even more strongly, felt that the options were premature. On the other hand, PCHRG
sought action stronger than a letter and called for changes in the Medicare Conditions of
Participation. The AHA did not comment on this recommendation.

We welcome the commitment of PHS and HCFA to proceed with a joint letter. Our
inquiry did not address the accreditation practices of the American Osteopathic
Association (AOA). If HCFA and PHS jiind it appropriate to send the joint letter to AOA
as well as JCAHO, we certainly support their action. We have still included the
regulatory and legislative options under the recommendation; they could be reasonable
longer term actions depending on the results of further inquiry and the joint letter.

METHODOLOGY

Both the AHA and the AMA raised methodological concerns associated with our report.
Both sets of concerns, in effect, have to do with the factors we rely upon to support our
finding that “there is sufficient basis for concern about the hospitals’ response to the Data
Bank’s reporting requirements. ” The AHA pointed out the lack of any reliable estimates
of adverse action reports from hospitals, the inadequacy of reporting rates per 1,000


                                              10
hospital beds as a measure of hospital reporting, and the inappropriateness of the Harvard
Medical Practice study as a point of comparison. The AMA indicated concerns with both
tables we presented, noting that they do not reflect adjustments for the size of
nonreporting hospitals or the size of the medical staffs. As did AHA, it raised concerns
about our reference to the prior estimates of hospital reporting (even with the caveats we
offered) and our use of the Harvard study as a point of comparison. It also found our
reference to the number of disciplinary actions taken by medical boards to be misleading.

 We recognize that an understanding of the hospital reporting issue could be advanced
 through jimther analysis and more rejined measures of hospital reporting. We would
 welcome additional inquiry of that sort. Our own purpose, as stated, was to conduct a
preliminary inquiry. Given the limits of our data, we deliberately did not make an
 unqualified assertion that there was a problem involving the extent of hospital reporting.
 Instead, we concluded that there was sufficient basis for concern. Such concern, we
 added, was sufficient to warrant ji.wther inquiry by PHS (through a study and a
 conference), and, more immediately, some joint action by PHS and HCFA to assess more
fully hospital compliance with the Data Bank law. Given that 75 percent of the hospitals
 never reported an adverse action during the jirst 3 1/3 years of the Data Bank’s
 operation, given the wide variation in reporting levels among the States, and given the
 other “considerations” we noted, we continue to find that there is adequate basis for our
 modest recommendations.




                                             11
                           APPENDIX                  A

        HOSPITAL ADVERSE ACTION REPORTING, BY STATE

                                       TABLE 1

               HOSPITALS SUBMITTING NO ADVERSE ACTION REPORTS TO THE

               DATA BANK, BY STATE, SEPTEMBER 1, 1990- DECEMBER 31, 1993

                    1                    1                    I





S. DAKOTA

IDAHO
                    !
                              59

                              52
                                         I
                                                    55

                                                    48
                                                                I
                                                                            93.2%


                                                                            92.3%

                                                                                     I

MONTANA                       59                    54                      91.5%

MISSISSIPPI	        I        114         I         103          I           90.4%    II

                    (


ALASKA

MINNESOTA
                    I
                              34

                             158
                                         I
                                                    30

                                                   138
                                                                I
                                                                            88.2%


                                                                            87.3%

                                                                                     I

ALABAMA                      137                   119                      86.9%

LOUISIANA                    181                   157                      86.7%

                    1                    1                      I


N. DAKOTA                     56                    48                      85.7%

                    I                    1                      I

TENNESSEE                    147                   126                      85.7%

NEBRASKA                     102                    87                      85.3%

IOWA                I        127          I        107          I           84.3%    II

OKLAHOMA

ARKANSAS
                    I
                             160

                              85
                                          I
                                                   132

                                                    70
                                                                I
                                                                            82.5%


                                                                            82.4%
                                                                                     I

KANSAS                       153                   125                      81.7%

N. CAROLINA                  157                   127                      80.9%

                    I                     1                     \                    1

HAWAII

NEW MEXICO
                    I
                    I
                              26

                              61
                                          I
                                          I
                                                    21

                                                    49
                                                                I
                                                                I
                                                                            80.8%


                                                                            80.3%
                                                                                     I

                                                                                     II

MISSOURI                      158         I        126          I           79.8%    II

TEXAS               I        540          I        429          I           79.4%    II
WYOMING
                    I
                              29
                                          I
                                                    23
                                                                I
                                                                            79.3%
                                                                                     I

W. VIRGINIA
                    1
                              62
                                          I
                                                    49
                                                                I
                                                                            79.0%

                                                                                     I

WISCONSIN            I        148         I         114         I           77.0%    II

S. CAROLINA          I        78          I         60          I           76.9%    II

MASSACHUSETTS        I        146         I         112         I           76.7%    II

KENTUCKY             I        123         I         94          I           76.4%    II

                                        A-1
NEVADA
                          38                        29                       76.3%
                                                                                                 I
GEORGIA
                         197                       150            I         76.1%        II
ILLINOIS
                       233                        176            I         75.5%        II
UTAH
                I           58            I           43             I         74.1%        II
VIRGINIA
                        138                       100                      72.5%

VERMONT
                         18                        13                       72.2%

PENNSYLVANIA
         I         277            I           198            I         71.5%        II
FLORIDA
              I         314            I           222                      70.7%        II
CONNECTICUT
          I          54            I           38             I         70.4%        II
NEW HAMPSHIRE                    39                        27                       69.2%

MAINE
                           41                        28                       68.3%

OREGON
                          68                        46             \         67.7%        II
MICHIGAN

                      I
                                 192
                                               I
                                                           128
                                                                          I
                                                                                    66.7%
                                                                                                 I

ARIZONA
                         102                       68                       66.7%
                                                                                                 I

DELAWARE

                      1
                      I

                                 15
                                               I
                                                           10
                                                                          1
                                                                                    66.7%

                                                                                                 I
INDIANA


COLORADO

                      I
                                 165

                                 90
                                               1
                                                           109

                                                           59
                                                                          I
                                                                                    66.1%

                                                                                    65.6%

                                                                                                 I
                      I                        I                          I                      1

RHODE ISLAND
                    20                        13                       65.0%


OHIO
                            212                       136                      64.2%

CALIFORNIA
           I          557           I           355                       63.7%       II
WASHINGTON
                      97                        61                        62.9%

NEW YORK
                        294                       184                       62.6%

MARYLAND
             I          81            I           50             I          61.7%       II
D.C.
                            16                         9                        56.3%
                                                                                                 I
NEW JERSEY


U.S. TOTAL

                      I
                      I
                                 120

                                6588
                                               I
                                               I
                                                           62

                                                           4917
                                                                          I

                                                                          I
                                                                                     51.7%

                                                                                      NA
                                                                                                 I
                                                                                                 II
STATE MEAN
           I          127           I            95            I          74.6%       II
STATE MEDIAN
         I          117           I           90.5           I          76.4%       II
Source:AdverseActions by State, 1990-1993, HealthResources& ServicesAdministration,U.S. Public
HealthService.                                                                                   II




                                              A-2

                                        TABLE 2
                HOSPITAL ADVERSE ACTION REPORTS PER 1000 HOSPITAL BEDS,
                      BY STATE, SEPTEMBER 1, 1990- DECEMBER 31, 1993

                           Numberof             Numberof Reports    ReportsPer 1000
        STATE             HospitalBeds          Madeby Hospitals     HospitalBeds
NEVADA                       4,144                    35                  8.5
D.C.                         7,527                    61                  8.1
ARIZONA                     13,629                    94                  6.9
COLORADO                    13,691                    90                  6.6

WASHINGTON                  15,735                    88                  5.6

VIRGINIA                    29,349                    124                 4.2

DELAWARE                     2,808                    11                  3.9

MAINE                        6,083                    23                  3.8

OREGON                      10,153                    38                  3.7

CALIFORNIA                  105,270                  390                  3.7

UTAH                         5,641                    20                  3.6

NEW HAMPSHIRE                4,831                    17                  3.5

MARYLAND                    19,982                    70                  3.5

INDIANA                     26,143                    90                  3.4

KANSAS                      15,477                    52                  3.4

OKLAHOMA                    15,100                    50                  3.3

ALASKA                       1,909                    6                   3.1

NEW JERSEY                  37,796                    117                 3.1

NEBRASKA                    10,292                    30                  2.9

MICHIGAN                    39,913                    116                 2.9

OHIO                        51,701                    149                 2.9

FLORIDA                     63,415                    174                 2.7

WYOMING                      3,026                    8                   2.6

VERMONT                      2,290                    6                   2.6

GEORGIA                     36,334                    91                  2.5

NEW MEXICO                   6,867                    17                  2.5
         .—         —
TEXAS                       79,982                    190                 2.4

KENTUCKY                    19,052                    43                  2.3

N. DAKOTA                    5,213                    11                  2.1

MONTANA                      4,742                    10                  2.1




                                         A-3

RHODE ISLAND                      4,301                          9                           2.1

WISCONSIN                         23,971                        50                           2.1

NEW YORK                         102,036                       210                           2.1

S. CAROLINA                       15,166                        29                           1.9

MISSOURI                          29,455                        56                           1.9

ARKANSAS                          13,328                        24                           1.8

IOWA                              17,009                        30                           1.8

CONNECTICUT                       14,238                        25                           1.8

PENNSYLVANIA                      66,298                        116                          1.8

N. CAROLINA                       30,151                        52                           1.7

MASSACHUSETTS                     31,973                        55                           1.7

W. VIRGINIA                       10,590                        18                           1.7

IDAHO                             4,045                          6                           1.5

ILLINOIS                          57,343                        84                           1.5

LOUISIANA                         23,980                        35                           1.5

MINNESOTA                         24,019                        35                           1.5

HAWAII                            4,274                          6                           1.4

ALABAMA                           23,574                        33                           1.4

TENNESSEE                         29,420                        37                           1.3

MISSISSIPPI                       17,577                        19                           1.1

S. DAKOTA                         5,450                          4                           0.7

U.S. TOTAL                       1,206,293                     3,154                         NA

STATE MEAN                        23,198                        61                           2.6

STATE MEDIAN                      15,606                       37.5                          2.5

Sources: Adverse Actions by State, 1990-1993, Health Resources & Services Administration, U.S. Public Health
Service; and State Sumry    of Hospital Beds, Quality Resource Systems, Inc. (from data provided by the
American Hospital Association’s 1991 MM Annual Survey).




                                                 A-4

                             APPENDIX                   B

                       COMMENTS ON THE DRAFT REPORT

In this appendix, we present in full the comments from the Assistant Secretary for Health
and the Health Care Financing Administration, We also present the comments from the
Joint Commission on Accreditation of Healthcare Organizations, the American Hospital
Association, the Public Citizens Health Resource Group, and the American Medical
Association.




                                           B-1

,f”-         ‘

 4                DEP-M~       OF EIEALfM& HUW    SEUVICES             F@GC+kdlllsmic9

‘%4                                                                    Memorandum        .
      Dam           JAI’11919S

      ROm         Assistant    Secretary   fox Heaith


      was
       OffLCO of Inspectar General (OXG) Draft Repoti    “Rospital
                  Reporting   to the NationaL PractLtfoner Data Bank,”
                 OE1-01-94-00050




                 Attached are the Public Heaith Senice     comments on the subject
                 draft report.    we concur fully or in part with the report’s
                 recommendations.    The attached Comments delineate thq Actions

                 we plan to tm.ke to i.m,pJementthese recommendations.





                 Attachment

           J’m LIC HEALTH SERVICE         (PHSI COMMENTS     ON      OFFICE  OF
     lNSPECTOR     GENERAL       (OIGI   DRAFT   REPORT   “HOSPIT~   REPORTING  TO
        ~


  @nerul      Cmnm ents


   The UIG report focuses on the issue of hospital       compliance
  with  NatSonai     Practitioner Data Bank (Data Bank) repo-lng
   requirements.      The period studied encompasae8 3 1/3 yeaz=,
   from the opening of the Data EMnk on September 1, 1990 through
  December 31, 1993. -ing          this period, 3,1S4 di8clos*le
  adverse   clinical    privileges  reports were submitted to the Data
  Bank by hospitals.        During this same period, State llcensure
  boards reported almost 9,000 adverse licensure actions, and

  malpractice insurers reported over 60,000 malpractice

  payments.                                                 ,..


  The (YIG report   raises concerns about hospital compliance with

  reporting requirements based on the relatively low number of

 clinical    privileges reports from hospitals in comparison to

 PM’s pre-Data Bank opening planning estimate of 5,000

 cllnical privileges reports per year ~rom hospitals.       The fact

 that the rate of hospital reporting varies widely from State

 to State also raises concerns, as does the number of clinical
 privileges reports in relation     to the laxger numbers of
 reports     of other   types.
 We note that the issue is not one of the efficiency      of Data
 Bank operations      themselves.  Hospitals use the same reporting
 form6 and procedures that are successfully      used by malpractice
 insurers, State licensing boards, and others to report to the

 Data Bank.      During the study period, the Data Bank processed

 over 73,000 disclosable malpractice payment and adverse action

 reports and over 3 million queries from authorized entities.

 In addition, the Data Bank provided over 122,000 responses

concerning     malpractice payments anciior adverse actions to

queriers.      Data from other CYIG reports indicate that Data      Hank

information provided co queriers may have resulted in

decisions not to provide privileges to about 2,000

practitioners      with poor zecords, who otherwise would have been

granted privileges.


 The Data Bank relies on voluntary compliance by hospitals with

 reporting requirements.   The Data Bank uses several means tO

make the required reporting as easy as possible.    For example,

the Data Bank provfdes guidance materials on what is to be

reported and how it should be reported.    A new (third) edition

of the Llata Bank Guidebook is scheduled fcr mailing to ail

hospitals in late JanUarY 1995. In addition, a free telephone

 “help line” for questions about reporting requirements is

available  to hospitals.
                                                                              ,-

                                                                         2.


   Reporting forms and methods are also being improved.      Paper
  reporting forms ware revised in 1994 to simplify their
  completion c During 1995, the Data Bank’s cUrrent system foz
  electronic  querying will be expanded to also provide a
  capability for electronic  reporting.    ‘rhIs w~ll eMainatO    the
  necessity to fill out paper fox.       The Data Bank will   pxcnr$do
  free reporting software to hospitals and other reporters and
  will provide tollfree modem connections     for submitting  reports
  electronically.
  Despite these efforts to facilitate voluntary compi$azace with

  xeporting requirements     the OIG report identifies &o specific

  types of potential problems in hospital reporting to the Data
  Bank. Although PI-IS’Health Resouzces and Services
 Administration    (HIWA) was aware of the possible problems
 identified in the repo=      (in fact, HRSA requested that the OZG
 conduct this study)z we believe the report is valuable      beuause
 it highlights the problems.      By documenting these problems,
 the report will serve as a basis for discussion and as a means

 to gain cooperation of others, including hospitals, the Jofnt

 Commission on Accreditation of Healthcare Organizations

 (JCAHO), and the Health    Ca= Financing Administration   {HCFA),
 in resolving  them.

 There axe two types of under-reporting.     The first is

 noncompliance with the law by failing to report disciplinary

 actions which are required to be reported to the Data Bank.
The second type involves a change in the manner in which
hospitals impose penalties in professional disciplinary canes
to minimize the imposition of penalties which would “require
reporting to the Data Bank.   For example, clinical privileges
suspensions of more than 30 days must be reported; shorter
suspensions are not reportable.   By reducing the length of
suspensions to les6 than 30 days,  hospitals    could avoid
reporting to the Data Bank.

 The first type of und=-reporting       is illegal.   The second type
 is legal, but contrary   to the intent    of the law and
detrimental to the general     utility of the Data 13ank program.
Although the OIG report primarily focuses on the first type;
the second type may actxxally be of much greater significance
to the Data Bank, depending on the extent of each type.          The
OIG report identifies the second type as an issue warranting
further analysis and suggests that WSA conduct some intensive
case studies on the issue.      HRSA is focusing attention on this
issue in a major survey of hospitais and other       erititfe8 which
interact with the Data Bank.
                                                                                  3




    designed   to-e~  ‘‘e, among other issues? the s-end t--of
    Unde=-reportfngs    Walcoff and Associates s~           a sampie of
    ~,MO entftfs=,   f=c~u@w    600 hospitals~    tO d@t*s      ~OW ~W
   f.nteract  with the Data Bank, use Ilata Bank tifomtlori       (if *
   entitie= are asking for data)~ and how Oata Sank reportfng and
   querying p~ocedures can be improved.       Results are due in-t!xa
   early spring of 1995. If the s~y          remxlts  inticat~t hat
   changes in hospital behavior are being made to avoid Data Bank
   repofilng, we may want to conduct case studies as recommended
   in the OIG report.

   The OZG report also contributes new information in relation to
   the first     type of under-reportfng.       M one unnamed Stats, 16
   act~ons by hospitals which should hava been reported to the
   Data Rank were found to have not been reported.               Since the (YIG
  only examined incidents from hospitals which had reported to

   the State Licensing boati, but had made no reports to the Data
  Bank, We cannot      dete~ine~       (1) the extent of under-reportiIZg
  by hospitals which did make at least one report to the Dat8

  ~an.k; (2) the extent of under-re~ofiing M hospitals which did
  not :eport      some or all incidents which should have been
  reported ta the State ~lcensing board; or (3) the overall
  extent of under-reporting         in the unnamed State.       We Qniy know
  for certain that there was some under-reporting in this one
 State, but “~e cannot d=temine           either the true extent or the
 significance of the under-reporting.            The cucwnented     fact of
 this wxier-reporting~         ~ow@ver. indicates the possibility       that
 sj.milar    under-reporting     may take piace in other States and maY
 be a significant problem.

  The report’s other argument that there may be under-reporting
  by hospitals seems less explanatory.           The report cites the

  fact that rates        Of reporting   of adverse clinicai privileges
  actions .~ary considerably from State to State.             It should   also
  be noted,     however,     that there is no evidence that the
 variation results from under-reporting (or a greater degree of
 under-reporting)         in some States. !ialpraccice payment
 reporting also varies considerably from State to State,                There
 is on~y a Weak correlation between a State’s malpractice
report =ate and its clinical           privileges report :ate. TO date,
the state-t~-s~ate          var~ations are unexplained,    hut we have no
particular xeason to believe that some States            have    higher
under-reporting        rates    than others fur clinicai privileges
actions =nd that under-reporting explains the differences in

clinical privileges r@porting rates ubserved among the states.

  OIG Recommendation
        1.	    The PHS~ Eh=ough the -A,    should suPE$ort further
               inquiry to foster a bettez understanding of the
               factors influencing hospital reporting to the Da%a
               Oank .



   We concur.   We are currently undeztakirig one such study (one
   portion of the Walcuff and Associates study discussed under
   the general comments above examines hospital reporting),         In
  addition, we received some relevant    information from the WAMI
   (Washington, Alaska, Moxacana, and Idaho) study of the
  experience of rural hospitals with the llata Bank.        liowever, we
  note that data are Mnited    on which to assese   the   issues
  specifically identified by the QIG as warranting further
  analysis.    rn particular, further examination may be required
  concerning the proportion of hospitals that either do not take
  actions against practitioners or take actions which are not

  reportable.    The extent of failure by hospitals    to make
 required reports also may require further examination,
  Intensive case studies invoiving review of peer review
 records, as recommended by the OIG, may be the best way to
 examine these issues even though it may be difficult to get
 hospitals to participate.     It is important to note that HHSA
 does not have the staff or financial xesouxces      to perform the
 type of detailed examinations envisioned by the OIG.           If

 resources became available, any studies would have to be

 performed by contractors.


OXG Recommendation


      2.	     The PHS should sponsor a conference to focus
              attention on issues influencing reporting to the
              Data Bank.

FHS Comment
We concur with the thrust of this zecc.mmenciation,    but  believe
 that ‘Ne can achieve the desired resul:s   by taking a different
approach.     In order to establish strcnger direct communication

with hospitals, the HRSA’S LIivision    of Quality Assurance,
which manages the operation of the Data Bank, will be engaged

in a series of & ~       work group meetings and presentations at

various professional society meetings.      These work group
meetings and presentations should reach     a broader audience
ehan would   a one-time  cmference.   In addition, these types Of
fora will allow for more one-on-one    interaction between the
relevant parties and Shouid be more effective at focusing

                                                                                     s

      ~ttm~on,      g=    both ~hg hospital and Data Bank points of
      viewr on issues affectfng       report~ng.   However, if tlzese
     meetings and presentatf~-         do not P=-    tO be @ffectl~   fi
     idezmffyhzg     issues influencing    repar%~ng to the Data Bank,          we
     will    g~ve further consfdezatfon tu the conference approach
     reooaunended    by the OIG.

     9=         rzecomm endatfon

                  3.	     The PHS and the JfCF’Ashouid work together    to ensure
                          that  the JCAMO more ftzlly assess hospitals’
                          compliance with the intent and parzicuiars of the

                          Data ~ank law.


          s    Resvo    nse

     we          The OZG proposed three optfonss (1) sending a
              concur.
     jofnt Letter f.-m PHS and HCFA urging that it incorporate
  compliance   with   Data Bank requirements into its      standards and
  identify hospitals which do not comply during its reviews;
  (2) amending the Medicare Conditions of Participation
  (regulatory change) to rewixe         Compliance with Data Bank
 requ~x=~ents,     which  would   in turn  lead to better JCA.HO
 oversight in this area;        and (3) proposing legislation
 requiring amendment of the Medicare Conditions of

 Parcic:pation,     as proposed in (2] above.      “#e support

 impiemencation     Oi the first option.

Data ~ank s~aif .Ni~l work with HCFA an this ~ette~.    Initial

discussions   have already been held.  .%meeting wi.Ll be

scfi.eciuled

            soon between Data Bank and ENA  staff tu discus6

this issue ana begin drafting ths necessary correspondence.

It    ~h=         ~o~n~ J~O   ~~~~er   to
                                   apprcac~ does  ~OC :esu~t ~~ the
needed change, :hen we wouid support afforts ta change the
Me~icare Conditions of PartlClp?itfO~,      :hrough legislation if
necessary (options 2 anti 3),
      * ,,,.
           ,C,,   ,/,

  /                     ,                                                                      Health Care
~.+                         DEPARTMENT       OF HEALTH & HUhl Ah’SERVICES                      Financing Adm(nis[ra[ion
;          k


                                                                                               Memorandum


               DATE                 DEC I 2 1994

               FROM                Bruce C. V1adeck+-v
                                   Administrator

               SUBJECT             Office of Inspector General Draft Repoxt: ‘fHospital Reporting to the
                                   NationalPractitioner


           TO                      June Gibbs Brown

                                   hspector General




           We reviewed the subject draft report which looks at how hospitals are responding    to
           their legal obligation to report to the National Practitioner Data Bank adverse actions
           they take against heahh care practitioners.

          The EIealth Care Financing Adrninistration concurs with the report recommendations.
          Our comments are attached for your consideration.

          Thank you for the opportunity to review and comment on this report. PIease advise us
                 ~~j--&fidLn&     ‘ffid’~~~wadd     like to discuss our position on the report’s
                 (requlato~      chanqe)    ta  requixe     compliance     WA ~.A . . . .

                             requirements,      .~hich would   in turn   lead
                                                                       better JCAHC)
                                                                                to
                            avers ight in this area; and (3 ) proposinglegislation
                            reauir=ng amendment of the Medicare Candi tiuns of
                            ?arciczpaci~n, as proposed in (2) above.   ‘i?esupport
                            impiemenratiun of the fixsc option.
                                          -~ .wi~~ work •~ith HCFA an thiS ~ette~ c Initial

                            Data Eank stax.

                            discussions have already been heid. .%meeting will be

                               eauled soon ketween Data Bank and EP3A szaff to discuss
                            scfi.

                            tiis issue anti begin drafting the necessary correspondence.

                            If the joint letter to JUUKl apprcac.h does not :esu Lt in the
                            needed change, :hen we would supporz afforts  ta champ   the
                            Meaicare Conditions of ~articipacfsn, :hrouqh legislation if
                            nece5saq   (options 2 ana 3),
            Comments of the EIeaIthCare FinancingAdministration(HCFA) on

                    Officeof ImsuectorGeneral (OIG) Draft Report

                        Reportingto the PJational
               “l?Iosnital                                 Data 13ank.”

                                                Practitioner

                                    [oEI-ol-94-ooo50\


  OIG Recommendation

 The Public HeaM Service (PHS), through the Health Resources Services
 Administration, should support further inquiry to foster a better understanding of the
 factors influencing hospital reporting to the Data Bank.

 HCFA Response

 We defer to PI-IS.

 OIG Recommendation

 The PHS should sponsor a conference to focus attention on issues influencing reporting
 to the Data Bank.

 HCFA Response

We defer to PHS.

OIG Recommendation

The PHS and the J3CFA should work together to ensure that the Joint Commission on
Accreditation of HeaIthcare Organizations assesses more fully hospitaIs’ compliance with
the intent and particulars of the Data Bank law. Toward this end, they might consider
thefollowing
 options: A Letter, Regulatory Change, and/or Legislation.

HCFA Response

We concur and recommend the “letter”

                                  approach as opposed to regulatoryor statutory
change, \Ve alsorecommend includingthe American OsteopathicAssociation,
                                                                      which
accredits 150 hospitals for Medicare purposes, in the communication.
                                           JointCommission
   December       19, 1994               wAcueat@lan o! tkwmcare Llmami:,ons



   June Gibbs      Brown
   Inspector      General
   Department      of Health   and   Human Services
   Wilbur   Cohen Building
             J.            - Room 5250
  330 Independence Avenue S.W.
  Washington, DC 20201


  Dear Ms. Brown:


  I am writing in response to your letter of November  1S, 1994 which
  invites the comments of the Joint Commission on Accreditation of
  Healthcare Organizations on your draft inspection report, “Xospital
  Reporting to the National Praccicioner Data Bank.” Our cormnencs are

  limited to the recommendations that appear in your draft report.


 More in-depth Public Health Service (PHS) inquiry to achieve a better
 understanding of the factors influencing hospital reporting to the Data
 Bank should, we believe, be the first priority.     Such an understanding is
 an essential prerequisite to any informed action concerning che issue of
 National Practitioner Data Bank (NPDB) reporting. We are persuaded that

 there are a host of factors influencing hospital reporting to the Data

 Bank. If a decision is made to expiore these more fully, che Joint

 Commission would be pleased to cooperate in such an endeavor before new

 seeps are taken CO reined-ythe perceived pro’blem with hospital reporting.


.-i

   PHS-sponsored conference focusim  on issues which may in~luence DZCZ
Bank reporting sounds like a soiid ‘f:rsc step coward defining the
reporting problem.   We certainly su?porc this approach, znd would suggest
chac such a conference be limited in size and be structured in a manner

designed to facilitate participation of appropriate experts.   .+

conference designed in this fashion .Gould be most likely to yield the

concrete information and recommendations we all seek.


 The third recommendation, that :he PHS and che Health Care Financing

 Administration (HCFA) work together zo ensure that che Joint Commission

 assesses more fully hospitals’ compliance with che intent and particulars

 of the Data Bank law, seems somewnac premature when contrasted with che

 previous recommendations aimed z: .d~fining che problem.  .Absenc z better

unaerscancing of this problem, ..-zs’:ggest there is a substantial risk

:hac nore costly  and burdensome feaerai requirements may be piacea on
providers without a clear sense of :he likelv outcomes chat may result.
It is Worthy of note chat this recommendation ignores the face chat XCFA

direccly certifies approximate;; 2.000 unaccredited hospitals for

Medicare participation.

June Gibbs Brown

December 19, 1994

Page Two




We believe it is appropriate to expect the Joint Commission to

collaborate with PHS and HCFA to “assess more fully hospitals’ compliance

with the intent and particulars of the Data Bank law. “ However, we

suggest it is premature to draw conclusions about the most appropriate

remedy for disparate reporting at this time.


Thank you for   providing   us the   opportunity   to comment on this   important
matter.

Sincerely,





Dennis S[.O’Leary! Y.D.

President

    Cl&go. Rfii   60604
    Tdqdmu 3124   WOOO



    hnuary 26.1995

   June Gibbs Brown
   InspectorGencrd
   Oflke of InspezmrGenemi
   Depamnentof Heaith & Human Services
   Washington, D.C 20201

   Re:     DraftReport - Hospitai Reporting to the Nationai Practitioner Data Bank

   I)car Ms. Brown

  7%e American Hospitai        (AHA), on behalfof its 5,000 hospi~i m~bcrs. wclcomea
                      Association

  thisopportunitym comment on theOfficeof Inspector Gcncmi’s ~~t EPOR on hospital
  qorring to the Nationai PtaccicioncrData Btmk Because our rrtcrnbers am pficipa.i contributors
  to and u.scrs
              of hta Bank infoxrnation. the AHA hasa significant  interest inreporting  patterns
               KM Mucrtce them. Althoughwc salute
  and thefactors                                   your office’s continuingcfforIsto

                            withData Bank requirements. we have .tious concerns with
  monitorandcvduatecoxrtplhncc

  some ofthereport’s     omissions. and interpretations.
                  findings,

 Mcthoduloticd Cortccrns: .Asthe report acknowkdges, the PHS tXh7X~R that them would be
 5,000 hospi~ adverse action reports per yearwas justthat:an cstimam~vichout any cmpiricai

 evidence. the Department’s “bestguess” m to what it wouid findonce repottingrequirements€
 were inqdemented.   To theextent[hateswnate In factmis..cs the mark. xiktbie conclusions
 ~bouctk mwmableness of hosp:mi reporting arc irnpossibic. \loreovcr. = the OIG suggests.
 lmprovcmettts  incretfentiahngwmiquality   assurance practices
                                                              Sincethecsumatewas formulated
 can be expected to improve practitioner performance. To the extent they have doneso.the5,000
 per yesr estimate becomes an even less reliance basis foreva.iuatirtg[hedata.


C)thcr indicatom used in the reponalsoareproblematic. There is Iitde   m nxommcnd reporting
~atcs per 1000 hospital hcdsasa rciiabic measure of hospital rcpurting. Sirnii+, tic ~xv~~
Medical Pl~ studyhtil.whileinteresting, fad to provide a basis for comparison: incidents of
ncgii:encc wc not inmmhwge~bje ~~i~ adverse acti~~$ for Dam B@ WIJo*s”

 Indeed. omong the data presented. only the .wace-m-sci.ttereporting vuiatiuns. presented in Table
 1 of Appendix A- suggest thatfunher analysis might bc fruitfuI. [II the discussion of issues it
believes warrant further maiy.sis. however. [hcOIG foilsco focus on tk insufficiency        of the
I{tiilth CiIR  Quality lmorovernenc .4CC’S (HCQIA) immunity provisions and the powerful
Jisinccntivc (hey cfta~c r’t’r h(~spltai cecr rewew activity.
   Analytical Concern: When HCQIA was enacted, itwas recognized that maadatoty qxmittg
   mquircnxntswould lead to an inctmsc in litigation as physicians faced with discipiimtry action
   challenged adverse peer review aah?ns. In m effort tomducc the chiiling effect suchlitigation
   wotdd have on cfftivc peer review. Congress provided qwdifkd immwi[y topw’c@ncs in~
   peer review prtmss.

  HCQIA’Speer review immunity, however. has been oniy panially    effective
                                                                          becausemany courts
  ttavenot required physicians  CO rcbucthe statutnry  presumption of immunity with credible
  evidencepxiurco &M. Earlymsoiuaon in these cases is impossible. even where thtxc is no
  objective evidence of improper peer review activity. Although by no means W the cases have
  misimcrpnmd the immunity provisio~ some mum have substantially ignomi tlmm denying
  moaons for suznmazyjudgment and forcing triais. Unless the avaiiabifit y of these provisiork is
 detmnined objective&yand early in the {itigation,they cannot hcip bat fall short of theirstatuttxy
 purpose. The specter of baseicss. time-cunsuming and expensive iicigation serves as a powcrfid
 disincentive to effective peerreviewactivity. Any study of reporting behavior needa to take this
 disincentive into ixcount in order10 accwafeiy interpret adverse actions that fall below the
 r.h.msholdfor Data Bank reporting.

 The AHA appreciates the opportunity 10 provide our comments on the OIG’s draft reporton
 hospital reporting to the National practitioner Data Ebnk. We hope our comments am Mpftzi
 and wili await xmciving   die finai rcpom


Sinccreiy,



2L?L..’&
Fnxlric

      J.Entin
Senior Vice Resident
md Gencrai Counsci
                                                               h
                                   @@&!2

                                    u                                         ~!


                                                    1

              Buyers Up . Congress Watch   �   critical    Mass .   Health   RcsemCh
                                                                                   Grwup Liti~alion

                                                                                               Group
                                                                                               �



                                                JoanC@bmok.President




                                                                                            January 9, 1!395

June Gibbs Brown

Inspector General

Department ofl-lealth   andt-iuman                Sewices

Washington,     DC 20201


Dear Ms. Brown:

       Please find enclosed our comments on OIG’S draft repofi: “Hospital Repofiing
to the National Practitioner Data Bank.” We appreciate the opportunity to review and
comment on this repoft. Please let us know if we can be of fudher assistance to you
or your staff in your studies regarding the I’4ationai Practitioner Data Bank.




       d                                                  Sincerely,
      *

Sidney M. Wolfe,
Director
                   t!-  D
                         *O       -
                                                                                              ef’~
                                                                                            Joan Stleber, JD, MSW
                                                                                            Staff Attorney

                            Public Citizen’s Health Research Group


Enc!osure




                                           Ralph Nader, Founder
                       2000 P %ce[ NW      �   Wkhin~ton, D.C. 20036           �   (202) 833-3000
                                      9“                @ wmw0. medal        Pam
               COMMENTS ON “HOSPITAL REPORTING TO THE NATIONAL
                    PF?ACTITiONEF? DATA BANK” [OEJ-01-94-00050)

                     Submitted by Public Citiien’s Heaith Research Group
                                       January 9, 1995

              We appreciate the oppodunity to comment on this report by the OIWe of
     Inspeotor General (01(3} of the Department of tieatth and Human SerVioes (12HHS).
     The report represents an important first step Ioward understanding the faotors
     irtfiuencing hospitais’ reporting -or faiiure to report - to the Natlc?naiPraotithxwr Data
     Bank, as mandated by the !-ieatth Care Quality Improvement Act of 1986 (HCQIA).
     However, the repod raises more questions than it answers, and follow up study on this
     issue is imperative.

       As noted by the OIG, hospitals’ cooperation            is especially    criticai to the Data
 Bank’s effective operation, since:

 �
           the nation’s approximately     6,500   hospitals    represent      a major   source   of
           information for the Data Bank;

 �
           a loss or reduction of hospitai privileges raises serious questions            about a
           physician’s competence and/or professionalism; and

 �
          hospitals have considerable data on the practice patterns of individual doctors,
          and are in a good position to identify those who may be placing their patients at
          risk.

        We share the OIG’S concern about the suspiciously low rate at which hospitals
are repotilng adverse actions to the Data Bank, A shocking 75 percent of all hospitals
never reported a single adverse action during the 3-1/3 year period covered by the
OiG’s report, While the OIG offers several possible hypotheses for thh deficiency, We
find the first -- thatthere may be few practitioners with serious performance problems
-- to be highly improbable.

      In fact, published estimates of negligence in hospitals strongly discredit this idea.
The 199~ Harvard Medical Practice Study (as noted by the 01(3) found that one percent
of hospitaiizaticm in New York state in one year involved adverse events caused by
negligence, inGiUdinfjalmost 7,000 cieaths~This result prujected to b@talS nati~n~i~~
suggests that 80,(??0patients a year are kiiied by negligence, mostly by physicians, in
hospital settings alone. At this rate, there would have been 266,400 patient deaths due
to negligence in hwpital$ cwer the 3-1/3 year period in which hospitals reported only
3,154 adverse atitons to the Data Bank,

        For this reason as well as others noted by the OIG, we suspect that hospitais are
either failing to take serious disciplinary actions against doctors as needed, or they are
taking such actions but grcms{yunderreporting them to the Data 5ank, Therefore, we
  Comments by Public Citizen’s Heaith Research Group
  Page Two


  strongly support the OIG”S recommendation for further study, both to team more about
  factors influencing hospitals’ reporting practices, and as a basis for enforcement aotions
  against hospitals found out of compliance with the law. We also support the OIG’Sother
  recommendations, with particular attention to the option of revising the Medioare
  Conditions of Participation to speci~ hospitais’ responsibilities under the l-iCQtA.

          t%aily, we note that the current penaity provided by the HCQiA for
 noncompliance by hospitals maybe insufficient to deter violations of the law. Hospitals
 that faii to repofl adverse actions to the Data Bank as required risk Io$lng the IICQIA’6
 liability prokticm for three years. That protection exempts peer reviewem from
 monetary damages      in private iawsuits over professional    review aotions that meet
  certain standards, However, the law appears to provide only immunity from damages,
  not from suit, leaving peer reviewers still at risk of having to defend against claims for
 injunctive or declaratory reiief, Even suits seeking damages may still go to trial to
 decide whether discipline was imposed in bad faith. Thus, some view the HGQIA’s
 liability protection as relatively weak, and its loss may not appear k? pose ~UGh cif a
 threat.

         The penalty for noncompliance by hospitais is aiso inconsistent with most other
penaity provisions in the iaw. The t-iCQIA authorizes monetary penaities upto$10,000
per inoident for faiiing to repoti payments on malpractice claims, as weil as for
violations of the confidentiality provision.

        We urge the Pubiic Heaith Service to propose legislation strengthening penaities
 for noncompliance by hospitais. That legislation should authorize (in adcfltlon to loss of
the law’s limited liability protection) monetary penajties up to $10,000 per incident for
hospitals that faii to report to the Data Bank as mandated by law, This would make
hospitai penaities at ie$st comparable t~ those applied to malpractice insurers who fail
to submit payment reports.

       Of course, even stronger penalties wiii be ineffective unless enforced by DHHS.
We are unaware     of any instance since the Data Bank’s inception in which a hospitai
was penaiized for faiiing to submit reports. VVe recommend that the OIG, in its foiiow
up studies, consider whether DHHS is appropriately exercising its enforcement powers
under the tiCQIA.
   American       Medicai Association
   Ptt@cIwM
          dedicated10th?healthIIf .Wermi



   JamesS.W.     MD          516NorthSW4!-WI’=     312464.5000
   hSCUUW5
        vh hrSMeM            -.     i~OU 60610     312464-4184 Fex




    February 1, 1995


   T& Honorable June Gibbs Brown

   Inspeetor General

   Office of InspectorGcnend

   Departmentof Heakh & HumanSexvices

   330 IndependenceAvenue. SW - Room 5246

   Cohenlhtiiding
   Washington. D.C. 20201

                                       “HospItaiRepmting   to   the   National   Practitioner   Data



  ~s”
  The American Medical As=iah         (~)     ww=ia~s your solic@I ow co-em
  the OffIce of Ioapector General*sdraft inspection report. “Hospital kporting to the
                                                                                       .OSI

  National
PraccitiomrData Bati. ” Ocmf= iw (O~G Rep).              ~ O~G ~CPOfiW=
  writun for the purpose of helping tie Public Health Service (lVIS) determine whether
 hospitals am reporting adverse actiow to the National Practitioner Data Bank (NPDB). as
 requiredby the HealthCam Quality Improvement Act (HCQIA). TM AMA’s review,
 however, conciudes that the Report fails far short of its purported goai. Even given the
 “preliminary”statusof the Report, our review has revealed important gaps in both
 accuracy and completeness of data, creating a rnisieading pietttre. We offer the foflowing
 comments and suggestions for your consideration.

The dam presemed on the extent of hospwti repordng isflawed and incomplete. For
example, Tsble 1 of Appendix A does not take utto account any adjusnncnt for the size
of the non-mpming hospitals or the number of physicianstcktltis~ on their medicalstaffs.
And although Table 2 does provide information on the number of reports per 1.000
hospid beds. the number ofreports  per 1.000 practicingphysicians must alsobe
                           significance
pnxemed inorderrodemonstrate            variation.

                                   sr.a(c

Becauseof the irsxmpIete nature of the Reporr’s data, tie OIG’S co=iusion+ based on
this data. that the number of hospitals reporting adverse actions is “uMMwnddy IOW”
seems unfounded. The AMA’s concernis heightenedby he Report’smlkuxe on chc
following three items to support its case: (1) the 19i39planning cfoettmentsubmitted to the
Oflice of Management and Budget; (2) the disparity between the number of lieemum
actions against physicians and the number of adverse actions taken against hospital-b­
physiciam only: and (3) the 1991 Hamrd Medical Practice study of hospitalized pasients
    POgc2
    FCbNaL-Y1, 1995
    The Honorable June Gibbs Brown


   in New York state. .None of   t~ese rkee   items   credibly supports rhe OIG’S coneiusiona.



   The i989 estimate that hospitals may report 5.000 adverse action rqxm per year is
   invalid. In OIG’S WOdS the esdrnate was “based on iittle emptica~ evidence’ and was
   “widely acknowledged to be iittle more than informed guesses. ”

  To determine if there has been 8 change in the frequency of RPOf@l hospiti ahrse
  actions as a result of the implementation
                                          of HCQIA’Sreporting mqttifmem to the
  ,NPDB,the OIG Shouk!conracc     chemedicallkensingboarda.which-*        hospirala

                                                                                   to
  report             lfthedarashowsno changeinthereporting

       adverseactions.                                    ratesinceSeptember

                                          were simplyway offticmark.

  1.1990.itwouldconfhm thattheearlycsdxnates


  Comparison of the Number of Actions &po rrcd by Liccnsirw Boards and H-

  There is a difference between tie number of actions reported by licensing boards and
 hospitals. This diffcmnce in and of itself doesnotindicate
  any panicuhtrpxwblctn;
 nevertheless,
 theOIG uses this difference to suggest that Imspitak are not taking
 ~ssazy actiom to ensure the qudiry of their medicai staff. The AMA dispures this
 conclusion.

 Tbe OIG should have analyzed tic reasons these numbers may be different. in concert
 with information avadab]e on the 7,675 “prejudicial actions” taken by Iieensing boards
 against physicians. The diffmtmees couid be basedon a variety of factorsnot considered
   theReport. Most sunifxanti y, how many of the phys~ciansreported ate on a hospital
 h-t

.medicai sraff. and how many are office-baaed/ambulatory care-based physicians? How
many of that number are multiple iicensurc actions against a single physician.
                                                                             perhaps
even regardingthe same evenr as sanctionedby rnuitiple jurisdictions? What are the
degrees of sanction imolved and do they vary by state?

 Evahuttion of questions such as rhese maY help 10explain quantitative disparities and
resot~e  concernabout hospiral   Under-mponing.The broadening of the OIG’Sevaluation
[o include ~alitative data wilI Iead uscoa more complete and crediblcportrayalof whet
[s actually happening. For exampie, the (XG might consider raking a random munpk of
reported  liccnsurc
actions to determine if a hospitai shouid have initiated an adverse
action atior reported    an adverseaction
 cotheNPDB.
     Page 3

     February1, 1995

     The HonorableJune Gibbs Brown



     1991 Harvard Medical Practice Studv of New     York Sta te


    T&ereference co this study does not SUWXM     a concern about w “UIUC~OIIMY low ievei
    of bospiud repotting.” Cleady, adversecvems do occur. In a msjofiw of immmces.
    though. the event is not the responsibiIiV of a “bad physicti. ” Mr.    adverse events
   am fmqumttly attribu@bleto flawed systems or processes. It is u~vefidly t=ognized
   that punitive !neasm= against physicians do noc prevent adverse evenu from occurring
   and overail is not an effectwe patient safcty~quaiiw improvement me=um. It is more
   cfkctive to improve the process or system by wfich health care is delivered than ro
   penalize a physician who practices in a bad system.

    In conclusion. we urge tie OIG to ~on.wdcr m data and h cowhsions drawn from
    that data to either cotirm or refute tie charge that hospitals are not fully compiying with
    chairkgaI obligation to report adverse acuons to the Natiomd Practitio= Data Bank.
   Without further analysis. it is pmmaturc to recommend that the PHS sponsora
   conferenceon issues irdluencing reporthg to IJX NPDB, or to take steps to have che Joint
   Commission on Accreditation of Heaithcare Organizations increase its focus on assessing
   the hospitai’s Compliance witi the H~QIA- we offer our asskf=e to obtain the best
  available information and understanding of the facto=influencing    reporting
                                                                hospital      to
  theNPDB.




~ James S. Todd. MD
                           APPENDIX                    C


                                        NOTES

1.   Information, under certain conditions, could also be made available to
     plaintiffs’ attorneys.

2.   45 CFR Part 60 (1989).

3.   See Department of Health and Human Services, Office of Inspector General,
     National Practitioner Data Bank: Use@lness and Impact of Repotis to
     Hospitals, 0E1-01-90-O0520, February 1993 and Department of Health and
     Human Services, Office of Inspector General, National Practitioner Data
     Bank: Use&lness and Impact of Repotis to State Licensing Boards, OEI-Ol-
     90-00523, March 1993.

4.   At the time of our inquiry, December 31, 1993 was the latest date for which data
     were available to us.

5.   Across the United States we are reporting on a total of 6,588 hospitals,
     based on data provided by the Health Resources and Services
     Administration. The total represents hospitals which were in existence
     sometime during the September 1, 1990 to December 31, 1993 period and
     which, therefore, could have submitted adverse action reports sometime
     during that period. The total is not a count of the number of hospitals in
     existence on December 31, 1993.

6.   54 Fed. Reg. 52,853, Dec. 22, 1989.

7.   For calendar years 1991, 1992, and 1993, the Federation of State Medical
     Boards reports 7,675 “prejudicial actions” against physicians. These
     include license revocation, suspension, or surrender; probation or licensure
     restrictions of some kind; and other formal actions such as penalties or
     reprimands. We arrived at a 3 1/3 years estimated total of 8,000
     prejudicial actions by assuming that at least 325 were taken in the last 4
     months of 1990. Given that 2,361 were taken in all of 1993, the 325
     estimate appears to be reasonable.

8.   All physicians disciplined by boards are not necessarily on hospital staffs. On the
     other hand, some could be on the staff of more than one hospital.

9.   Troyen A. Brennan, et al., “Incidence of Adverse Events and Negligence in
     Hospitalized Patients: Results of the Harvard Medical Practice Study 1,” The New
     England Journal of Medicine 324, no. 6 (February 7, 1991): 370-76.




                                         c-1
10.	   Improving the overall performance of the medical staff and assuring that
       certain minimum standards of performance are maintained are not
       necessarily incompatible objectives. Indeed, the director of one well-
       respected quality insurance program told us that in his program involving
       multiple hospitals both objectives coexist. At the same time that the overall
       standard of care has been improved, a number of physicians have been
       disciplined and/or reported to the risk management program.

       Yet, in the quest to maintain a “safe” environment for physicians to
       participate in reviewing data on practice variations, it certainly is plausible
       that a hospital may choose to reemphasize or even avoid disciplinary
       activities, perhaps by allowing physicians whose performance is
       questionable over a substantial period of time to leave the staff and find
       other practice settings.

11.	   To obtain some information on the extent to which reportable hospital actions may
       not in fact be reported to the Data Bank, we sought the cooperation of medical
       licensure boards in eight States. Our intention had been to give them a list of all
       hospitals in their States that had not reported a single practitioner to the Data Bank
       in the 1990- 1993 period and then to have asked them to identify any referrals
       they received and disciplinary actions they took involving physicians from those
       hospitals. With that information, we would then have checked to see if any of
       those cases involved hospital actions that should have been reported to the Data
       Bank.

       Unfortunately, during the brief period of our inquiry, only one State was
       able to provide us with sufficient information. Other States either were not
       readily able to identify referrals or disciplinary actions by source or to free
       up sufficient resources to review hospital referrals to determine if they
       should have been reported to the Data Bank. In the participating State,
       officials were able to provide such information and afforded us the
       opportunity to review hospital reports ourselves.

12.	   These actions included reductions, surrenders, suspensions, and
       terminations of physicians’ clinical privileges. Information was obtained
       from case files.

13.	   Through the Health Care Financing Administration, the Department conducts
       validation surveys of a sample of hospitals to assure that they comply with the
       Medicare Conditions of Participation.

14.    The more precise explanations that the Joint Commission inserted in the scoring
       guidelines	 respond to suggestions made by the Health Resources and Services
       Administration of the Public Health Service. The amendment concerning timely
       querying responds in part to a recommendation we made in a February 1993
       report. In that report, National Practitioner Data Bank: Usefi.dness and Impact of
       Reports to Hospitals (OEI-01-90-O0520), we called for the Joint Commission to


                                             c-2
“establish guidelines on how quickly hospital should query the Data Bank after
receiving applications for privileges. ”




                                  c-3
